HHS/OIG-Audit--"Review of Medicare Payments for Beneficiaries with Institutional Status, Group Health Plan, Inc., (A-05-97-00014)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Beneficiaries with Institutional Status,
Group Health Plan, Inc.," (A-05-97-00014)
June 22, 1998
Complete Text of Report is available in PDF format
(381 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Under Medicare's risk-based contracts, the Health Care Financing Administration
(HCFA) makes monthly advance payments to health maintenance organizations at
a per capita rate set for each enrolled beneficiary. A higher capitation rate
is paid for enrollees who are institutionalized. This final audit report estimates
that Group Health Plan, Inc. (GHI) received Medicare overpayments of at least
$1.6 million for beneficiaries incorrectly classified as institutionalized during
our audit period of October 1, 1994 through September 30, 1996. The overpayments
were due primarily to a flaw in GHI's computer systems that led to the submission
of incorrect information to HCFA regarding the institutional status of beneficiaries.
We recommended strengthening internal control procedures to correct the problem
and that GHI review the balance of the institutionalized universe to identify
and refund additional overpayments.